Supreme Court, U.S,
FILED

JUL 0 9 2020
OFFICE OF THE CLERK

20“
No.

3ht tfje Supreme Court of tfje fHmtetr States?
Dennis Marc Grigsby,
Petitioner,
v.
Dwight Neven, Warden, et al.,
Respondents.
PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
PETITION FOR WRIT OF CERTIORARI
Dennis M. Grigsby, #1033640
Pro Se Petitioner
P.O. Box 650 - High Desert State Prison
Indian Springs, NV 89070

QUESTIONS PRESENTED

1.
Did the state district court failure to certify its
grant of motion for reconsideration affect the course of
proceedings and factor into the Nevada Supreme Court
affirmance of the post-conviction writ prior to the
scheduled evidentiary hearing, violate "procedural due
process and equal protection of law", as guaranteed by
the 5th and 14th Amendments of the U.S.
Constitution?
2.
Are federal habeas corpus determinations
predicated upon a procedural error in state post­
conviction proceedings regarding other state court
judgments invalidated, where the "highly deferential
standard of evaluation which demands that state-court
decisions be given the benefit of the doubt", preclude
the standard of habeas corpus review within the
meaning of 28 U.S.C. § 2254?

l

LIST OF PARTIES
All parties do not appear in the caption, additional
respondents are:
Brian E. Williams Sr., Warden
Aaron Ford, Nevada Attorney General

n

LIST OF RELATED CASES

Dennis Marc Grigsby v. The State of Nevada, et al.,
District Court, Clark County Nevada, order denying
habeas corpus petition.
July 30, 2015, case
#08C246709.
Dennis Marc Grigsby v. The State of Nevada, et al.,
Nevada Supreme Court, order of affirmance. June 17,
2016, #68783.
Dennis Marc Grigsby v. The State of Nevada, Nevada
Supreme Court, order denying rehearing. Sept. 22,
2016, #68783.
Dennis Marc Grigsby v. Brian E. Williams Sr., et al.,
United States District Court for the District of Nevada,
order denying habeas corpus petition. October 18,
2019, case #2:16-cv-01886-APG-DJA.
Dennis Marc Grigsby v. Dwight Neven, et al., United
States Court of Appeals for the Ninth Circuit, order
denying request for a certificate of appealability. April
16, 2020, #19-17248.

m

TABLE OF CONTENTS

Page
Questions Presented

i

List of Parties

n

Related Cases

in

Table of Authorities

vi

Opinions Below

1

Jurisdiction

1

Constitutional and Statutory Provisions
Involved............................................

2

Statement of the Case

5

Reasons for Granting the Writ

8

Conclusion

15

INDEX TO APPENDICES
Appendix A - United States Court of Appeals for the
Ninth Circuit, order denying request for a certificate of
appealability
Appendix B - United States District Court for the
District of Nevada, order denying habeas corpus petition
IV

Appendix C - Nevada Supreme Court order denying
rehearing
Appendix D — Nevada Supreme Court, order of
affirmance
Appendix E — Eighth Judicial District Court, Clark
County, Nevada, order denying habeas petition
Appendix F - None

v

TABLE OF AUTHORITIES

CASES

Page(s)

Darden v. Wainwright, 477U.S. 168 (1986)

15

Donnelly v. DeChristoforo, 416 U.S. 637 (1974) . . 15
Doyle v. Ohio, 426 U.S. 610 (1976)

10

Harvey v. State, 78 Nev. 417, 375 P.2d 225
(Nev. 1962)......................................................

14

Lastine v. State, 134 Nev.Adv.Rep. 66, 429 P.2d 942
(Nev. 2018)
12
Nix v. Williams, 467 U.S. 431, 81 L.Ed.3d 377, 104
S.Ct. 2501 (1984)........................................................ 11
Smith v. Phillips, 455 U.S. 209 (1982)

13

State v. Taylor, 114 Nev. 1071, 968 P.2d 315
(Nev. 1998)..........................................................

12

Taylor v. Kentucky, 436 U.S. 478 (1978)

14

U.S. v. Brown, 328 F.3d 487 (7th Cir. 2003) .... 11
U.S. v. Chaidez, 919 F.2d 1193 (7th Cir. 1991) . . 11
U.S. v. Cotnam, 88. F.3d 487 (9th Cir. 1984) .... 11

vi

United States v. Davis, 332 F.3d 1163
(9th Cir. 2003).....................................

12

U.S. v. Impink, 728 F.2d 1228 (9th Cir. 1984) ... 12
U.S. v. Matlock, 415 U.S. 164 (1974)

12

Watters v. State, 129 Nev.Adv.Op. 94, 313 P.3d 243
(Nev. 2013).............................................................. 14
CONSTITUTIONAL PROVISIONS
U.S. Constitution 4th Amendment

2

U.S. Constitution 5th Amendment

2, 10

U.S. Constitution 6th Amendment

3

U.S. Constitution 14th Amendment

3

Nevada Constitution, Article 1, Section 18

4

STATUTES AND RULES
Federal Rules of Criminal Procedure
Nevada Revised Statute — 175.161

VXl

15
4, 13-14

OPINIONS BELOW
Federal Courts
U.S. Court of Appeals — Appendix A
Unpublished
U.S. District Court - Appendix B
Unpublished
State Courts
Nevada Supreme Court - Appendix D
Unpublished
Eighth Judicial District Court - Appendix E
Unpublished
JURISDICTION
Federal Courts:
The date the United States Court of Appeals
decided my case was April 16, 2020. Jurisdiction of
this Court is under 28 U.S.C. § 1254(1).
State Courts:
The date the highest state court decided my case
was June 17, 2016. A copy of that decision appears at
Appendix D.
A timely Petition for Rehearing was denied on
1

the following date: September 22, 2016, and copy of the
order denying rehearing appears at Appendix C.
Jurisdiction of this Court is under 28 U.S.C. § 1257(a).
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
Fourth Amendment to the U.S. Constitution
The right of the people to be secure in
their persons, houses, papers, and effects,
against unreasonable searches and
seizures, shall not be violated, and no
warrants shall issue, but upon probable
cause, supported by oath or affirmation,
and particularly describing the place to
be searched, and the persons or things to
be seized.
Fifth Amendment to the U.S. Constitution
No person shall be held to answer for a
capital, or otherwise infamous crime,
unless on presentment or indictment of a
grand jury, except in cases arising in the
land or naval forces, or in the militia,
when in actual service in time of war or
public danger; nor shall any person be
subject for the same offence to be twice
put in jeopardy of life or limb; nor shall
be compelled in any criminal case to be a
witness against himself, nor be deprived
of life, liberty, or property, without due
2

process of law; nor shall private property
be taken for public use, without just
compensation.
Sixth Amendment to the U.S. Constitution
In all criminal prosecutions, the accused
shall enjoy the right to a speedy and
public trial, by an impartial jury of the
State and district wherein the crime
shall have been committed, which district
shall have been previously ascertained by
law, and to be informed of the nature and
cause of the accusation; to be confronted
with the witnesses against him; to have
compulsory process for obtaining
witnesses in his favor, and to have the
Assistance of Counsel for his defense.
Fourteenth Amendment to the U.S. Constitution
Rights Guaranteed Privileges and
Immunities of Citizenship, Due Process
and Equal Protection
Section 1. All persons born or naturalized
in the United States and subject to the
jurisdiction thereof, are citizens of the
United States and of the State wherein
they reside. No State shall make or
enforce any law which shall abridge the
privileges or immunities of citizens of the
United States; nor shall any State
3

deprive any person of life, liberty, or
property without due process of law; nor
deny to any person within its jurisdiction
the equal protection of the laws.
Nevada Constitution, Article 1 Declaration of
Rights Section 18. Unreasonable Seizure and search;
issuance of warrants.
The right of the people to be secure in
their persons, houses, papers and effects
against unreasonable seizures and
searches shall not be violated; and no
warrant shall issue but on probable
cause, supported by Oath or Affirmation,
particularly describing the place or
places to be searched, and the persons or
persons, and thing or things to be seized.
Nevada Statutes, Title 14. Procedure in
Criminal Cases. Chapter 175; Conduct of Trial.
175.161; Instructions.
1. Upon the close of the argument, the
judge shall charge the jury. The judge
may state the testimony and declare the
law, but may not charge the jury in
respect to matters of fact. The charge
must be reduced to writing before it is
given, and no charge or instructions may
be given to the jury otherwise than in
writing, unless by the mutual consent of
4

the parties. If either party requests it,
the court must settle and give the
instructions to the jury before the
argument begins, but this does not
prevent the giving of further instructions
which may become necessary by reason
of the argument.
STATEMENT OF THE CASE
Petitioner was convicted of first-degree murder
with the use of a deadly weapon and possession of a
firearm by an ex-felon. He was sentenced to life
without the possibility of parole for the first-degree
murder conviction plus a consecutive term of 60 to 240
months for the deadly weapon enhancement. He also
was sentenced to 16 to 72 for the possession of a
firearm by ex-felon conviction. Petitioner timely
appealed, and the Nevada Supreme Court affirmed.
Petitioner filed a pro per superseding state
habeas corpus petition, arguing four grounds as to why
an evidentiary hearing is necessary. The state district
court denied the petition. Petitioner filed a timely
motion for reconsideration prior to filing a notice of
appeal, because the motion did not toll the time. And
moved to stay his appeal at the Nevada Supreme
Court pending resolution of the motion for
reconsideration at the state district court. The Nevada
Supreme Court denied the motion for stay indicating
that "a stay of this appeal is not appropriate. If the
[state] district court is inclined to grant
reconsideration, the [state district] court shall so
5

(

certify its intention to [the Nevada Supreme Court]".
The state district court granted the motion for
reconsideration and set a date for an evidentiary
hearing.
In preparation for the evidentiary hearing the
state district court clarified the grounds to be
addressed asserted by the Petitioner and stated "that
it would be beneficial in the overall analysis of this
case to have an attorney aiding and assisting in this
matter." The evidentiary hearing was rescheduled to
July 21, 2016; but before the hearing could be held, the
Nevada Supreme Court affirmed the denial of the
superseding state habeas corpus petition. Petitioner
moved for rehearing and a stay of remittitur at the
Nevada Supreme Court stating "that an evidentiary
hearing was pending and its order was premature."
The state district court vacated the evidentiary
hearing, finding that the matter was moot following
the Nevada Supreme Court affirmance. The Nevada
Supreme Court denied rehearing and issued the
remittitur.
Petitioner dispatched his pro se federal petition
for a writ of habeas corpus on August 8, 2016 and
supplemental reporter's transcripts and exhibits in
support of the petition on January 11, 2017. The
petition asserts that federal constitutional rights were
violated due to the following grounds:
1.

The state district court erred in not
accommodating a full hearing for him to air
additional reasons for his motion to dismiss
6

counsel.
2.

The state district court erred in admitting
evidence of the arson of his car.

3.

The State committed prosecutorial misconduct
when it elicited answers that bore upon his
invocation of the right to remain silent.

4.

The state district court erred in allowing
demonstrative evidence of a gun when no gun
was recovered.

5.

The state district court erred in rejecting his
proposed jury instructions.

6.

His trial counsel was ineffective in failing to
timely move to suppress evidence recovered
subsequent to an invalid warrantless search of
his domicile.

7.

His appellate counsel was ineffective in failing
to raise a preserved claim of prosecutorial
misconduct in his direct appeal.

8.

His appellate counsel was ineffective in failing
to raise issue of state district court error to
properly instruct the jury.

9.

Petitioner was denied "procedural due process
and equal protection of law", where the Nevada
Supreme Court overlooked a decision directly
controlling a dispositive issue in the case.
7

10.

There were cumulative errors.

The Respondents filed a motion to dismiss on
April 24, 2017. Petitioner opposed the motion, and
moved for the appointment of counsel, for expansion of
the record, and for an evidentiary hearing. The federal
district court granted the Respondent's motion to
dismiss in part, and denied Petitioner's motions for
appointment of counsel, expansion of the record, and
an evidentiary hearing. Specifically, the federal
district court dismissed Grounds 1, 2, 4, and 5 without
prejudice at Petitioner's direction and Ground 9
without prejudice as non-cognizable.
On May 10, 2018, the Respondents filed an
answer to the remaining grounds in Petitioner's
petition. Petitioner filed a traverse to the answer on
June 18, 2018. And the Respondents filed an
opposition to Petitioner's traverse on June 29, 2018.
On October 18, 2019, the federal district court
denied both the petition for a writ of habeas corpus and
certificate of appealability. Petitioner timely filed notice
of appeal on November 1, 2019 and motion for certificate
of appealability in the federal Court of Appeals for the
Ninth Circuit on November 12, 2019. Request for a
certificate of appealability was denied on April 16, 2020.
REASONS FOR GRANTING THE PETITION
The Questions Presented have a notable profile
of national importance. As other federal courts may
experience federal habeas determinations made upon
8

state post-conviction procedural error that denies the
practice to which substantive law is administered.
This Court can set new precedent that may affect
future federal habeas review.
Specifically, the federal court's denial of habeas
relief sanctions a state-court decision which departs
from the accepted and usual course of judicial
proceedings.
The federal district court was placed in a
precarious position because the state district court said
there should be an evidentiary hearing on the merits
of the superseding petition. Yet, through an arbitrary
outcome of the state district court not communicating
to the Nevada Supreme Court that there were still
proceedings taking place at the state district court.
The Nevada Supreme Court affirmed the denial of the
state habeas corpus petition before the evidentiary
hearing could be held.
Seeing that a federal district court does not
exercise appellate or supervisory jurisdiction over the
state courts. The following grounds are presented due
to the aforementioned questions for certiorari review:
A. Ground 3
In Ground 3, the Petitioner contends that his
federal constitutional rights were violated when the
prosecution committed misconduct by improperly
eliciting testimony of his post-arrest silence.

9

Although the prosecution did not directly
comment on Petitioner's post-arrest silence, it did so
indirectly. The federal district court determination
conflicts with Doyle v. Ohio, 426, U.S. 610, 618 (1976)
stating, "it does not comport with due process to
permit the prosecution during the trial to call
attention to [a defendant's] silence at the time of arrest
... an unfavorable inference might be drawn". The
Fifth Amendment right to remain silent assures
citizens "that silence will carry no penalty." Id.
B. Ground 6
In Ground 6, the Petitioner contends that his
federal constitutional rights were violated by trial
counsel's failure to timely move to suppress evidence
recovered subsequent an invalid warrantless search of
his domicile.
This Ground indicates the third party did not in
any way intimate she had mutual use and joint access
to or shared control over the Petitioner's apartment.
And that the affidavit in support of the search] the
search warrant informs that the Petitioner's
apartment was entered upon invalid consent and
searched by officers well before the process of
obtaining a warrant had begun.
Because the state court decision acknowledged
only "actual authority and assumption of risk" and the
federal court decision of "joint access or control for
most purposes" relies upon state court error. Both the
federal and state court determinations conflict with
10

circuit court standards for determining a third party's
actual authority to consent to a search.
For example, the Seventh Circuit, in United
States u. Chaidez, 919 F.2d 1193, 1201 (7th Cir. 1991),
has rejected the "assumption of the risk" approach,
since "renting a place 'for' someone else may create a
sublease. A landlord does not have authority to permit
a search of his tenant's leasehold, and the same holds
true for a tenant and his sub-tenant. Use of and
access to the property are the touchstones of
authority." United States v. Cotnam, 88 F.3d 487, 496
(7th Cir. 1996) (citing Nix u. Williams, 467 U.S. 431
444, 81 L.Ed.3d 377, 104 S.Ct. 2501 (1984)).
Contrary to federal district court opinion
stating, "[the Petitioner] does not allege any deficiency
regarding the search warrant, there was nothing to
suppress", the Petitioner contends that the consent to
search card relied upon was flawed and the search
warrant is invalid. And United States v. Brown, 328
F.3d 352, 358 n.5 (7th Cir. 2003), supports claim of the
habeas corpus petition, where "[defendant] asserts
that the affidavit supporting the warrant application
should have apprised the magistrate of the invalid
consent search ... any search warrant flowing from
such an affidavit would have been tainted by the
illegal search, and any evidence obtained pursuant to
such a warrant would have been fruit of the poisonous
tree."
Reexamination of federal district court
determination upon the state court's decision involving
11

i

State v. Taylor, 114 Nev. 1071, 968 P.2d 315 321 (Nev.
1998) (a defendant generally assumes the risk when he
cedes control of his property to another); will reveal,
instead Mildred ceded total control of the apartment to
the Petitioner as he paid the rent and utilities. They
did not cohabit, "share", or possess "equal control over"
the apartment. See Lastine v. State, 134 Nev.Adv.Rep.
66, 429 P.3d 942 (Nev. 2018).
In several cases, the Ninth Circuit explains that
"we have rarely applied the 'assumption of risk'
analysis ... and the few cases in which we have done so
have involved situations where the person whose
property was searched clearly ceded authority over the
property, either partially or totally, to the consenting
third party. See, United States v. Davis, 332 F.3d
1163,1170 n.4 (9th Cir. 2003). Moreover, "as between
the resident and a lessor with a narrowly proscribed
right of access, there be no doubt that the resident has
a greater right of'access or control for most purposes'".
See United States v. Impink, 728 F.2d 1228, 1233 (9th
Cir. 1984) (citing United States v. Matlock, 415 U.S. at
171 n.7). The determination should be based on actual
expectations of privacy rather than common law
definitions of property rights.
C. Grounds 7 and 8
In Grounds 7 and 8, the Petitioner contends that
his federal constitutional rights were violated by direct
appeal counsel's failure to raise preserved issue of
prosecutorial misconduct and state district error to
properly instruct the jury.
12

These two claims evolve from the same
statutory violation, a trial procedure error involving
jury instruction. Nevada Revised Statute § 175.161,
Instruction.
Appellate counsel was ineffective for not raising
the prosecution's oral instruction/charge of the jury
during closing arguments affecting the jury's
deliberation and verdict, a procedural error.
The State argued the following:
The next instruction talks about theories
of first degree murder. If you go back
and deliberate and, say, six of you believe
that he's guilty under the theory of lying
in wait. And six of you say to yourselves:
You know what, I think he's guilty, but I
think it's premeditation and deliberation.
As long as you all agree on a theory of
first degree murder, then he can be guilty
of first degree murder.
Federal district court opinion stating, "the
State's oversight in not offering the alternate theory
instruction and the state district court's failure to
supplement the instructions benefitted [the
Petitioner]", conflicts with Smith v. Phillips, 455 U.S.
209, 219 (1982), "the touchstone of due process
analysis in cases of alleged prosecutorial misconduct is
the fairness of the trial, not the culpability of the
prosecutor." Importantly, the trial court did not
instruct the jury that it did not have to unanimously
13

agree upon a theory of murder.
Furthermore,
"arguments of counsel cannot substitute for
instructions by the court," Taylor v. Kentucky, 436 U.S.
478, 488-89 (1978), and because Nevada Revised
Statute § 175.161(1) in pertinent part provides:
The charge must be reduced to writing
before it is given, and no charge or
instructions may be given to the jury
otherwise than in writing unless by the
mutual consent of the parties". See
Harvey v. State, 78 Nev. 417, 375 P.2d
225 (Nev. 1962).
Specifically, the unfairness of the trial was
compounded by the state's use of "PowerPoint" to
provide the improper oral charge/instruction visually.
In the context of "PowerPoint" used during a trial, "a
PowerPoint may not be used to make an argument
visually that would be improper if made orally". See
Watters v. State, 129 Nev.Adv.Op. 94, 313 P.3d 243,
247 (Nev. 2013).
Moreover, appellate counsel did not obtain copy of
the February 4, 2009 guilt phase transcript in order to
see that trial counsel properly preserved these claims for
direct appeal. Appellate counsel was ineffective and
permitted the Nevada Supreme Court to affirm the
conviction upon an incomplete trial record months before
the transcript was filed. As a matter of due process, an
appellant is entitled to a "record of sufficient
completeness", so that he can demonstrate that
prejudicial "negligence per se" occurred during trial.
14

Because "prosecutors' comments 'so infected the
trial with unfairness as to make the resulting
conviction a denial of due process.'" Darden v.
Wainwright, 477 U.S. 168, 181 (1986) (quoting
Donnelly v. DeChristoforo, 416 U.S. 637, 643 (1974)).
The federal district court determination without
providing the Petitioner a "full and fair" hearing to
litigate these claims, ratified the prosecutorial
misconduct and judicial error which violated the
Federal Rules of Criminal Procedure.
D. Ground 10
In Ground 10, the Petitioner contends that his
federal constitutional rights were violated by
cumulative error of the aforementioned grounds and
federal court determinations.
CONCLUSION
The Petition for a Writ of Certiorari should be
granted.
Respectfully submitted,
v

b Jlxvuo

Dennis M. Grigsby, #1033640
Pro Se Petitioner
P.O. Box 650 — High Desert State Prison
Indian Springs, NV 89070

Um 74

Date: v
15

, 2020

